No. 19-2360
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

THOMAS HOLDEN,
Petitioner-Appellant,
v.
SHERRY L. BURT, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Jun 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.
Thomas Holden, a Michigan prisoner proceeding pro se, appeals a district court judgment
denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. The court
construes the notice of appeal as a request for a certificate of appealability. See 28 U.S.C.
§ 2253(c); Fed. R. App. P. 22(b)(2).
A jury found Holden guilty of assault with intent to commit murder, possession of a firearm
by a felon, and possession of a firearm during the commission of a felony. He was sentenced, as
a habitual offender, to serve twenty to thirty years in prison for the assault conviction, ten to twenty
years in prison for the felon-in-possession-of-a-firearm conviction, and five years in prison for the
remaining firearm-possession conviction. The Michigan Court of Appeals affirmed Holden’s
convictions and sentences. People v. Holden, No. 308164, 2013 WL 1165220 (Mich. Ct. App.
Mar. 21, 2013) (per curiam). The Michigan Supreme Court denied leave to appeal.
In 2014, Holden filed a petition for a writ of habeas corpus under § 2254. The district court
granted Holden’s motion to stay the proceedings to allow him to pursue post-conviction relief in
the state courts. Following his unsuccessful pursuit of a motion for relief from judgment in the

No. 19-2360
-2-

state courts, Holden filed a motion to lift the stay and to amend his habeas corpus petition along
with an amended habeas corpus petition. The district court granted Holden’s motion.
Holden’s amended habeas corpus petition asserted the following grounds for relief: (1) the
trial court erroneously admitted “irrelevant evidence of an unrelated assault despite the
prosecution’s failure to give the notice required by [Michigan Rule of Evidence] 404(b) and its
inability to offer a non propensity rationale for the evidence,” the prosecutor improperly used the
evidence during closing argument “to argue that [he] is ‘a violent individual,”’ and these errors,
cumulatively, denied him a fair trial; (2) the trial court incorrectly scored offense variable six “at
50 points” because the record did not establish “any premeditated intent to kill”; (3) the trial court
denied him the right to counsel of his choice and trial counsel “was ineffective for failure to recuse
himself after knowledge that counsel had been retained for trial”; (4) trial counsel was ineffective
“during plea bargaining” because he declined “a favorable plea without [Holden’s] consent”;
(5) trial counsel was ineffective for failing to “investigate pre-trial and present evidence that
[Holden] suffered from severe depression” and move “for a competency examination,” and
cumulative errors denied him “due process and a fair trial”; (6) trial counsel was ineffective for
failing “to investigate the criminal history of the complaining witness, [or] challenge this witness
through cross examination about his numerous prescribed medication” and “adequately examine
the star witness”; and (7) appellate counsel was ineffective because counsel “failed to investigate
and research [his] case for appellate review” and trial counsel’s “misrepresentation and
nondisclosure” constitute cause for appellate counsel’s failure to pursue appellate issues. The
district court denied Holden’s amended habeas corpus petition and denied a certificate of
appealability.
A certificate of appealability may issue only if a petitioner makes “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). A certificate

No. 19-2360
-3-

of appealability analysis is not the same as “a merits analysis.” Buckv. Davis, 137 S. Ct. 759, 773
(2017). Instead, the certificate of appealability analysis is limited “to a threshold inquiry into the
underlying merit of [the] claims,” and whether “the District Court’s decision was debatable.” Id.
at 774 (quoting Miller-El, 537 U.S. at 327, 348). When a habeas corpus petition is denied on
procedural grounds, the petitioner must show “that jurists of reason would fmd it debatable
whether the petition states a valid claim of the denial of a constitutional right and that jurists of
reason would fmd it debatable whether the district court was correct in its procedural ruling.” Slack
v. McDaniel, 529 U.S. 473, 484 (2000).
In part of his first ground for relief, Holden challenged the admission of other bad acts
evidence. Holden referred to Jerrell McCree’s testimony that approximately one week before the
assault for which Holden was on trial, Holden assaulted him when he gave Holden a ride in his
vehicle. McCree ran from the vehicle to a nearby gas station, and Holden followed him and
assaulted him again inside the gas station. Holden argued that the prior unrelated assault on
McCree was irrelevant to the assault on the victim for which he was on trial. Holden also argued
that the prosecutor failed to notify him of her intent to use the evidence and to provide a non­
propensity rationale for its use.
The district court acknowledged the State’s contention that Holden’s other bad acts claim
was procedurally defaulted, but opted to examine the merits of Holden’s claim because it did not
warrant habeas corpus relief and a merits analysis was simpler than a procedural default analysis.
See Johnson v. Lee, 136 S. Ct. 1802, 1806 (2016) (per curiam).
“In general, alleged errors in evidentiary rulings by state courts are not cognizable in
federal habeas review,” but habeas relief may be granted if “the state’s evidentiary ruling is so
fundamentally unfair that it rises to the level of a due-process violation.” Moreland v. Bradshaw,
699 F.3d 908, 923 (6th Cir. 2012) (quoting Collier v. Lafler, 419 F. App’x 555, 558 (6th Cir.
2011)). The district court rejected the first part of this ground for relief, finding that it was not
cognizable because it was based on an alleged error of state law that did not deprive Holden of due
process inasmuch as the evidence was admitted for a proper purpose, relevant, and not unfairly

No. 19-2360
-4-

prejudicial. Reasonable jurists could not debate that decision, given that “[t]here is no clearly
established Supreme Court precedent which holds that a state violates due process by permitting
propensity evidence in the form of other bad acts evidence.” Bugh v. Mitchell, 329 F.3d 496, 512
(6th Cir. 2003); see 28 U.S.C. § 2254(d)(1). The part of Holden’s first ground for relief challenging
the admission of other bad acts evidence does not “deserve encouragement to proceed further.”
See Miller-El, 537 U.S. at 327.
Holden also challenged the prosecutor’s use of the other acts evidence in her closing
argument. During her closing argument, the prosecutor stated:
And what did the defendant do? I believe the witness said he got heated and he hit
[McCree] in the face. And Jerrell McCree told you that he got out [of] the car and
he began to run. And did the defendant leave it right there? No. He escalated the
situation and chased [McCree] in the car to the gas station. Did he leave it there?
No. He escalated that situation and went inside the gas station after [McCree]; hit
him again; the witness said he fell to the ground and then the defendant tried to drag
him out of the gas station, ‘cause that’s the type of person the defendant is. He’s a
violent individual. Obviously, a family familiar relationship did not mean anything
at the time.
A prosecutor’s comments at trial will not rise to the level of prosecutorial misconduct
unless they “so infected the trial with unfairness as to make the resulting conviction a denial of
due process.”

Darden v. Waimvright, All U.S. 168, 181 (1986) (quoting Donnelly v.

DeChristoforo, 416 U.S. 637, 643 (1974)). It is permissible for a prosecutor “to argue ‘reasonable
inferences from the evidence’” presented at trial during closing arguments. Webb v. Mitchell, 586
F.3d 383, 396-97 (6th Cir. 2009) (quoting Byrd v. Collins, 209 F.3d 486, 535 (6th Cir. 2000)).
The district court reviewed the challenged portion of the prosecutor’s closing argument
and the opinion of the Michigan Court of Appeals, which found that the prosecutor’s challenged
remarks were harmless. The district court noted that prosecutors may not express their personal
opinions, emphasize “a defendant’s bad character,” or rely “on facts not in evidence” when
presenting their cases.

The district court pointed out that, in Holden’s case however, the

prosecutor’s remarks expressed reasonable inferences from “testimony about Holden’s behavior
toward family members.” Reasonable jurists would not debate that point, in light of McCree’s

No. 19-2360
-5-

testimony summarized above. The district court also concluded that the opinion of the Michigan
Court of Appeals—finding the prosecutor’s remarks during closing argument harmless—was
neither contrary to, nor an objectively unreasonable application of, Supreme Court precedent.
Reasonable jurists would not debate that conclusion, because there was substantial evidence
against Holden, Holden objected to the prosecutor’s remarks and the trial court sustained his
objection, and the trial court properly instructed the jury. Jurors are presumed to follow the trial
court’s instructions. Greer v. Miller, 483 U.S. 756, 766 (1987). For these reasons, reasonable
jurists would not debate the district court’s rejection of Holden’s prosecutorial-misconduct claim
based on the use of other acts evidence during closing argument. See Miller-El, 537 U.S. at 327.
Holden also claimed that the errors asserted in his first ground for relief cumulatively
denied him a fair trial. The district court correctly rejected this claim as non-cognizable on federal
habeas corpus review. See Williams v. Anderson, 460 F.3d 789, 816 (6th Cir. 2006). The
cumulative-error portion of Holden’s first ground for relief does not “deserve encouragement to
proceed further.” See Miller-El, 537 U.S. at 327.
In his second ground for relief, Holden asserted that the trial court erroneously scored OV
six when imposing sentence. He argued that OV six was erroneously scored “at 50 points” because
the record did not establish a “premeditated intent to kill.” Holden argued that the record did not
support the state trial court’s finding that he stated, before the shooting, that “I’m coming back to
get you.”
The district court rejected Holden’s second ground for relief. The district court concluded
that Holden’s claim was not cognizable in a federal habeas corpus proceeding because it involved
a state-law issue and that the trial court’s finding of premeditation was not based on any “materially
false information or misinformation of constitutional magnitude.” The district court pointed to the
victim’s testimony at the preliminary examination that Holden stated that he would be back to
“get” the victim and trial testimony that, after Holden shot at the victim’s house, he fired two more
times, hitting the victim, after the victim “moved in front of a window.”

No. 19-2360
-6Reasonable jurists could not disagree with the district court’s determination that Holden’s
second ground for relief did not warrant habeas corpus relief. See Miller-El, 537 U.S. at 327.
First, federal habeas corpus relief is unavailable for Holden’s sentencing claim to the extent that it
was based on an alleged violation or perceived error of state law. See Wilson v. Corcoran, 562
U.S. 1, 5 (2010) (per curiam); Howard v. White, 76 F. App’x 52, 53 (6th Cir. 2003).
Second, a sentence violates due process if it is based on “extensively and materially false”
information that the defendant “had no opportunity to correct.” Townsend v. Burke, 334 U.S. 736,
741 (1948); see Stewart v. Erwin, 503 F.3d 488, 495 (6th Cir. 2007). Holden did not identify any
materially false information on which the trial court relied. Instead, he merely disagreed with the
factual findings and inferences made by the trial court from the evidence presented at the
preliminary examination and trial. Holden’s disagreement with the trial court s view of the
evidence does not establish that the trial court based its sentencing decision on materially false
information. Townsend, 334 U.S. at 741. Moreover, Holden did not show that he lacked an
opportunity to challenge any incorrect information at sentencing. In fact, Holden objected to the
trial court’s ruling on OV six at sentencing.
Holden’s third through sixth grounds for relief asserted ineffective assistance of trial
counsel. The district court concluded that these grounds for relief were procedurally defaulted.
Holden presented these claims to the post-conviction trial court in his motion for relief
from judgment. The state trial court rejected these claims because Holden did not raise them on
direct appeal and failed to show good cause for failing to do so and actual prejudice. The Michigan
Court of Appeals denied leave to appeal, and the Michigan Supreme Court denied leave to appeal
for failure “to meet the burden of establishing entitlement to relief under [Michigan Court Rule]
6.508(D).” People v. Holden, 889 N.W.2d 265 (Mich. 2017) (mem.).
To determine whether a brief, unexplained order citing Michigan Court Rule 6.508(D) is
based on a procedural default or is instead a merits ruling, this court reviews “the last reasoned
state court opinion to determine the basis for the state court’s rejection of’ a particular claim.
Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010) (en banc). Under this procedure, this court

No. 19-2360
-7-

presumes that “[wjhere there has been one reasoned state judgment rejecting a federal claim, later
unexplained orders upholding that judgment or rejecting the same claim rest upon the same
ground.” Id. at 291-92 (alteration in original) (quoting Ylst v. Nunnemaker, 501 U.S. 797, 803
(1991)). Here, the state trial court denied Holden’s post-conviction motion on procedural grounds
set forth in Michigan Court Rule 6.508(D)(3), which generally requires defendants to raise claims
on direct appeal. And while the state trial court also briefly addressed the merits of Holden s
claims, the procedural default ruling is not compromised. See Stokes v. Scutt, 527 F. App’x 358,
364 (6th Cir. 2013) (citing Harris v. Reed, 489 U.S. 255, 264 n.10 (1989)). Thus, this court
presumes that the state appellate courts—citing only Rule 6.508(D)—invoked the procedural bar
as well. See Guilmette, 624 F.3d at 291-92. This court has recognized that enforcement of Rule
6.508(D)(3) constitutes “an independent and adequate state ground sufficient for procedural
default.” Amos, 683 F.3d at 733.
Habeas corpus review of procedurally defaulted claims “is barred unless the prisoner can
demonstrate cause for the default and actual prejudice ... or demonstrate that failure to consider
the claims will result in a fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S.
722, 750 (1991). In order to establish cause, a habeas corpus petitioner ordinarily must “show that
some objective factor external to the defense” prevented the petitioner’s compliance with a state
procedural rule. Murray v. Carrier, All U.S. 478, 488 (1986).
As cause to excuse the procedural default of his third through sixth grounds for relief,
Holden asserted, in his seventh ground for relief, that appellate counsel was ineffective for failing
to present the ineffective-assistance-of-trial-counsel claims asserted in his third through sixth
grounds on direct appeal. An attorney is not required “to raise every non-frivolous issue on
appeal.” Caver v. Straub, 349 F.3d 340, 348 (6th Cir. 2003). Indeed, “‘winnowing out weaker
arguments on appeal and focusing on’ those more likely to prevail, far from being evidence of
incompetence, is the hallmark of effective appellate advocacy.” Smith v. Murray, All U.S. 527,
536 (1986) (quoting Jones v. Barnes, 463 U.S. 745, 751-52 (1983)). Where, as here, appellate
counsel “presents one argument on appeal rather than another ... the petitioner must demonstrate

No. 19-2360
-8-

that the issue not presented ‘was clearly stronger than issues that counsel did present’” to establish
ineffective assistance of counsel. Caver, 349 F.3d at 348 (quoting Smith v. Robbins, 528 U.S. 259,
288 (2000)).

The district court briefly considered Holden’s ineffective-assistance-of-trial-counsel
claims and concluded that he did not make the requisite demonstration. Reasonable jurists would
not debate that conclusion. First, as the district court observed, the record did not contain any
evidence that Holden “was unhappy with his appointed attorney, that he wanted to retain a different
attorney, or that the trial court deprived him of his right to counsel of choice,” and that “trial
counsel was not ineffective for failing to raise the counsel-of-choice issue, recuse himself, or
request an adjournment so that Holden could retain another attorney.” Second, the record did not
support Holden’s claim that his trial attorney rejected a plea offer without consulting him.
Holden’s evidence of the plea offer—a letter from Holden’s trial counsel to his appellate counsel—
states that Holden rejected the offer, contrary to his attorney’s and his family’s advice.
Third, Holden presented no evidence to support his ineffective-assistance-of-trial-counsel
claim based on the failure to pursue an insanity defense and a competency hearing. The record
contains no evidence that Holden was mentally ill when the crimes occurred and that, due to mental
illness, “he lacked the substantial capacity to conform his conduct to the requirements of the law.”
People v. Clark, No. 344701, 2019 WL 4463499, at *2 (Mich. Ct. App. Sept. 17, 2019). To the
contrary, the record contains evidence that Holden could follow the law by controlling his
behavior, which is one factor to consider when assessing the viability of an insanity defense. Id.
Nor does the record contain any evidence that Holden was incompetent to stand trial. “[A] person
whose mental condition is such that he lacks the capacity to understand the nature and object of
the proceedings against him, to consult with counsel, and to assist in preparing his defense may
not be subjected to a trial.” Drope v. Missouri, 420 U.S. 162, 171 (1975). Holden failed to show
that he met this standard for incompetence.
Fourth, Holden’s ineffective-assistance-of-trial-counsel claim based on counsel’s failure to
investigate the victim’s criminal history and cross-examine the victim regarding his prescribed

No. 19-2360
-9medication lacked merit. Holden presented no evidence that the victim had a criminal background.
And Holden has shown no prejudice resulting from counsel’s failure to question the victim
regarding his medication use because the trial court questioned the victim regarding that issue and
it was not necessary for counsel to revisit the issue.
Because Holden’s ineffective-assistance-of-trial-counsel claims lacked merit, reasonable
jurists would not debate the district court’s conclusion that appellate counsel was not ineffective
for failing to raise them on appeal. Consequently, reasonable jurists would not debate the district
court’s conclusion that Holden’s ineffective-assistance-of-appellate-counsel claim did not
establish cause to excuse the procedural default of his third through sixth grounds for relief.
The district court also concluded that Holden did not demonstrate his actual innocence of
the crimes of conviction, which would allow consideration of his ineffective-assistance-of-trialcounsel claims despite their procedural default. See McCleskey v. Zant, 499 U.S. 467, 494 (1991);
Murray, All U.S. at 496. Reasonable jurists would not debate that conclusion, because, as noted
by the district court, “Holden has not presented the court with new and reliable evidence of actual
innocence.” For these reasons, reasonable jurists would not debate the district court’s denial of
Holden’s ineffective-assistance-of-trial-counsel claims based on procedural default. See MillerEl, 537 U.S. at 327; Slack, 529 U.S. at 484.
Holden’s seventh ground for relief asserted ineffective assistance of appellate counsel. He
claimed that appellate counsel failed to investigate and research his case and present his
ineffective-assistance-of-trial-counsel claims on direct appeal.
The district court found that this claim did not warrant habeas corpus relief. The district
court concluded that Holden “had no constitutional right to compel his appointed attorney to raise
nonfrivolous arguments if the attorney, as a matter of professional judgment, decided not to raise
the requested arguments.” The district court also concluded that, because Holden’s underlying
ineffective-assistance-of-trial-counsel claims lacked merit, his ineffective-assistance-of-appellatecounsel claim based on the failure to raise those claims on appeal also lacked merit.

No. 19-2360
-10To establish ineffective assistance of counsel, a defendant must show deficient
performance and resulting prejudice. Strickland v. Washington, 466 U.S. 668, 687 (1984). The
performance inquiry requires the defendant to “show that counsel s representation fell below an
objective standard of reasonableness.” Id. at 688. The prejudice inquiry requires the defendant to
“show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694.
Reasonable jurists would not debate the district court’s rejection of Holden’s ineffectiveassistance-of-appellate-counsel claim. See Miller-El, 537 U.S. at 327. Holden s claim that
appellate counsel was ineffective for failing to present his ineffective-assistance-of-trial-counsel
claims on appeal lacks merit because, as discussed above, those underlying claims are meritless.
Appellate counsel is not ineffective for failing to raise meritless issues. Shaneberger v. Jones, 615
F.3d 448, 452 (6th Cir. 2010).
Accordingly, the application for a certificate of appealability is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:14-cv-13701-RHC-DRG ECF No. 24 filed 11/04/19

PagelD.1016

Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

THOMAS EUGENE HOLDEN, #457855,
Petitioner,

Case No. 14-13701

v.
THOMAS MACKIE,
Respondent.
JUDGMENT

Pursuant to the court’s Opinion and Order dated November 4, 2019, it is hereby
ORDERED AND ADJUDGED that this case is DISMISSED.
Dated at Port Huron, Michigan this 4th day of November 2019.
DAVID J. WEAVER
CLERK OF THE COURT
BY:

S:\Cleland\Cleland\HEK\Staff Attomey\14-13701 .HOLDEN.judgment.BH.HEK.docx

1

S/Lisa Wagner
Lisa Wagner
Case Manager and Deputy Clerk to
Judge Robert H. Cleland
(810) 292-6522

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.988

Page 1 of 28

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

THOMAS EUGENE HOLDEN, #457855
Petitioner,
v.

Case No. 14-13701

THOMAS MACKIE,
Respondent.
OPINION AND ORDER DENYING THE HABEAS CORPUS PETITION
AND DECLINING TO ISSUE A CERTIFICATE OF APPEALABILITY
Petitioner Thomas Eugene Holden seeks the writ of habeas corpus under 28
U.S.C. § 2254. He challenges his Michigan convictions for assault with intent to commit
murder, Mich. Comp. Laws § 750.83, felon in possession of a firearm, Mich. Comp.
Laws § 750.224f, and possession of a firearm during the commission of a felony (felony
firearm), Mich. Comp. Laws § 750.227b. Holden argues in an amended brief filed on
February 13, 2017 (ECF No. 16) iterations of the following claims : (1) he was deprived
of a fair trial by the use of “other acts” evidence and the prosecutor’s closing argument;
(2) the trial court relied on inaccurate information at his sentencing and mis-scored the
Michigan sentencing guidelines; and (3) he was deprived of effective assistance of trial
and appellate counsel. In its response to the petition, the State argues that Holden’s
claims are procedurally defaulted, not cognizable on habeas review, barred by the
statute of limitations, or meritless and were reasonably rejected by the state courts.
(ECF Nos. 10, 19.) For the reasons explained below, the court agrees with the State

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.989

Page 2 of 28

that Holden is not entitled to habeas corpus relief. Accordingly, the petition, as
amended, will be denied.
I. BACKGROUND
Holden was initially charged with assault with intent to commit murder, assault
with a dangerous weapon, felon in possession of a firearm, and felony-firearm, second
offense. The charges arose from an altercation between Holden and his stepfather,
Dwight McCree (“Dwight”), in Detroit, Michigan on April 13, 2011. Holden was tried in
Wayne County Circuit Court. The Michigan Court of Appeals accurately summarized the
evidence at trial as follows:
Jerrell McCree testified that, on April 13, 2011, he was waiting for a ride
outside of his father’s house when defendant, his half-brother, approached
him “ready to fight.” After Jerrell stepped back, defendant threatened him
saying, “When I catch you I’m beating your ass.” Jerrell then went back
into the house and his father, Dwight McCree, walked outside and
exchanged words with defendant, Dwight’s step-son. About ten minutes
later, there was a knock on the door and Dwight walked to the door.
Jerrell then heard about six shots fired outside the house. Next, he saw
Dwight on the floor. Dwight said that he was hit on his shoulder and was
bleeding. Jerrell testified that less than a week before this incident, he was
driving defendant somewhere when a “heated argument” occurred and
defendant “swung on me,” hitting Jerrell in the face. Jerrell got out of the
vehicle and ran to a gas station. Defendant chased him driving the vehicle.
At the gas station, defendant got out of the vehicle, approached Jerrell,
struck him, and then tried to drag him out of the gas station. Jerrell “pulled
back and that was it.” Jerrell had not seen defendant again until the day of
this shooting.
Dwight testified that, on April 13, 2011, he was home when Jerrell came
into the house and looked upset. Dwight looked out the front door and saw
defendant. Defendant told Dwight he “was on my last leg and then he said
he had one of those too.” Dwight believed that defendant was referring to
the fact that Dwight was “getting old” and that defendant also had a gun.
Dwight had a gun in the house and defendant knew where the gun was
located. Defendant told Dwight that he would be right back and left in his
car. About ten minutes later, Dwight heard shots being fired outside and a
window in his house breaking. Dwight got his shotgun, ran to the front of
the house, and began opening the front door. While he was opening the

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.990

Page 3 of 28

door, he then heard another shot, which penetrated the door and caused
the door to open.
After the door opened, Dwight saw defendant on the front porch and he
was holding a gun in his right hand. No one else was seen. Dwight fired a
shot through the closed screen door hoping to scare defendant away.
Dwight then moved to the right side of the door, and two more shots were
fired into Dwight’s house through a window on the side of the door where
Dwight was standing. Those two shots struck Dwight in his upper right
shoulder. He slid down the wall and then looked out the window and saw
defendant drive off in his car. Dwight identified defendant as the shooter to
the police. Dwight testified that he had had problems “off and on” with
defendant; it was a “bad relationship.” Detroit Police Officer Donald
Covington testified that he responded to a shooting and arrived at the
house to find bullet holes in the front door and window of the house, as
well as a victim who had been shot in the shoulder. The victim was Dwight
and he identified defendant as the shooter.
People v. Holden, No. 308164, 2013 WL 1165220, at *1 (Mich. Ct. App. Mar. 21, 2013).
At trial, Holden did not testify or present any witnesses, and the parties
stipulated, for purposes of the felon-in-possession count, that Holden had a prior felony
conviction and was ineligible to possess a gun on the day in question. Holden’s defense"
was that he was not the shooter and was not present during the shooting. In the
alternative, Holden argues that even if the jury believed the witnesses’ testimony, he
had no intent to kill or wound anyone.
The trial court merged the two assault counts in its charge to the jury and
instructed the jurors that they could find Holden not guilty, guilty as charged of assault
with intent to commit murder, or guilty of one of two lesser offenses: assault with intent
to do great bodily harm less than murder or assault with a dangerous weapon. The
court also instructed the jurors that they could find Holden “not guilty” or “guilty” of the
two firearm charges.
3

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.991

Page 4 of 28

On December 9, 2011, the jury found Holden guilty of assault with intent to
commit murder, felon in possession of a firearm, and felony-firearm. On December 22,
2011, the trial court sentenced Holden as a habitual offender to a term of 20 to 30 years
in prison for the assault conviction, 10 to 20 years for the felon-in-possession conviction,
and 5 years for the felony-firearm conviction.
Holden appealed to the Michigan Court of Appeals, arguing through counsel that:
(1) the trial court deprived him of his right to a fair trial by admitting irrelevant evidence
of an unrelated assault, and the prosecutor exacerbated the error during closing
arguments; and (2) the trial court mis-scored offense variable six of the Michigan
sentencing guidelines. The Michigan Court of Appeals rejected Holden s claims and
affirmed his convictions and sentence in an unpublished, per curiam decision. See
Holden, 2013 WL 1165220 (Mich Ct. App. 2013). On July 30, 2013, the Michigan
Supreme Court denied Holden leave to appeal because it was not persuaded to review
the issues. See People v. Holden, 834 N.W.2d 494 (Mich. 2013).
On September 23, 2014, Holden filed his habeas corpus petition, which raised
the same two claims that he presented to the state court on direct review. After the
State filed an answer to the petition, Holden moved for a stay of the federal proceeding
while he pursued additional state remedies for new claims regarding his trial and
appellate attorneys. (ECF No. 12.) The court granted Holden’s motion to stay and
closed this case for administrative purposes. (ECF No. 14.)
Holden then filed a pro se motion for relief from judgment in the state trial court,
arguing that his trial and appellate attorneys were ineffective. The state trial court found
4

i

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.992

Page 5 of 28

no merit in Holden’s claims about trial counsel and denied his motion because he failed
to raise his claims on appeal. See People v. Holden, No. 11-8368-01 (Wayne Cty. Cir.
Ct. Mar. 25, 2015) (unpublished). Holden appealed the trial court’s decision, but the
Michigan Court of Appeals denied leave to appeal because Holden failed to establish
that the trial court erred in denying his motion for relief from judgment. See People v.
Holden, No. 332824 (Mich. Ct. App. July 6, 2016) (unpublished). On January 31, 2017,
the Michigan Supreme Court denied leave to appeal because Holden failed to establish
entitlement to relief under Michigan Court Rule 6.508(D). See People v. Holden, 889
N.W.2d 265 (Mich. 2017).
Holden then filed a motion to re-open this case and an amended brief in support
of his habeas claims. (ECF No. 16.) The amended brief raises the claims that Holden
presented to the state court on direct review and on state collateral review. The court
granted Holden’s motion and re-opened this case. (ECF No. 17.) The amended petition
has been fully briefed.
II. STANDARD OF REVIEW
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) requires
habeas petitioners who challenge “a matter ‘adjudicated on the merits in State court’ to
show that the relevant state court ‘decision’ (1) ‘was contrary to, or involved an
unreasonable application of, clearly established Federal law,’ or (2) ‘was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceedings.’” Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018) (quoting 28 U.S.C.
§ 2254(d)). “[A] federal habeas court may not issue the writ simply because that court
5

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.993

Page 6 of 28

concludes in its independent judgment that the relevant state-court decision applied
clearly established federal law erroneously or incorrectly. Rather, that application must
also be unreasonable.” Williams v. Taylor, 529 U.S. 362, 411 (2000). “AEDPAthus
imposes a highly deferential standard for evaluating state-court rulings and demands
that [state-court decisions] be given the benefit of the doubt.” Renico v. Lett, 559 U.S.
766, 773 (2010) (internal citations and quotations omitted).
“A state court’s determination that a claim lacks merit precludes federal habeas
relief so long as ‘fairminded jurists could disagree’ on the correctness of the state
court’s decision.” Harrington v. Richter, 562 U.S. 86, 101 (2011) (quoting Yarborough v.
Alvarado, 541 U.S. 652, 664 (2004)). To obtain a writ of habeas corpus from a federal
court, a state prisoner must show that the state court’s ruling on his or her claim “was so
lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Id. at 103. Thus,
“[o]nly an ‘objectively unreasonable’ mistake, one ‘so lacking in justification that there
was an error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement,’ slips through the needle’s eye of § 2254.” Saulsberry v.
Lee, 937 F.3d 644, 648 (6th Cir. 2019) (quoting Richter, 562 U.S. at 103) (internal
citation omitted). A state-court’s factual determinations, moreover, are presumed correct
on federal habeas review, 28 U.S.C. § 2254(e)(1), and review is “limited to the record
that was before the state court.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011).

6

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.994

Page 7 of 28

III. ANALYSIS
A. “Other Acts” Evidence
In his first claim, Holden alleges that the trial court deprived him of a fair trial by
admitting irrelevant and unfairly prejudicial evidence of an unrelated assault. The
disputed evidence consisted of Jerrell McCree’s testimony that, about a week before
Holden’s assault on Dwight, Holden asked Jerrell to drive him somewhere, and when
Jerrell apparently did not take the route that Holden wanted him to take, Holden swung
at Jerrell and hit him on the face. Jerrell then exited the vehicle and ran to the nearest
gas station. Holden followed Jerrell in the vehicle, got out of the car at the gas station,
and hit Jerrell again. The altercation ended after Holden dragged Jerrell out of the gas
station. (ECF No. 11-5, PagelD.261-63.)
Holden argues in his habeas petition that this evidence was improperly admitted
at his trial because it had no relationship to the incident for which he was on trial and
because the evidence neither proved, nor disproved, the two main issues: the identity of
the shooter and the shooter’s intent. Holden also alleges that the prosecutor violated the
Michigan Rules of Evidence by failing to (1) give proper notice of her intent to use the
evidence and (2) offer a non-propensity rationale for the evidence. Holden further
alleges that the prosecutor exacerbated the error during closing arguments by using the
“other acts” evidence to argue that Holden was a violent individual. Finally, Holden
argues that the cumulative effect of the errors deprived him of his constitutional right to
a fair trial.

7

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.995

Page 8 of 28

The Michigan Court of Appeals reviewed Holden’s claim for “plain error” because
he objected at trial on the basis of relevance, but on appeal, he argued for the first time
that the evidence was inadmissible under Michigan Rule of Evidence 404(b). The Court
of Appeals analyzed Holden’s claim and concluded that the disputed evidence was
admissible under either Michigan Rule of Evidence 404(b) or under the res gestae
exception to Rule 404(b). The Court of Appeals also rejected Holden’s argument that
the prosecutor’s failure to give notice of her intent to use the evidence was reversible
error. Finally, the Court of Appeals stated that, although the prosecutor’s closing
argument about Holden being a violent individual was improper, the error was harmless.
The State argues that the first part of Holden’s claim is procedurally defaulted
because Holden failed to make a proper objection at trial. In the habeas context, a
procedural default is “a critical failure to comply with state procedural law.” Trest v. Cain,
522 U.S. 87, 89 (1997). Under the related doctrine, “a federal court will not review the
merits of [a state prisoner’s] claims, including constitutional claims, that a state court
declined to hear because the prisoner failed to abide by a state procedural rule.”
Martinez v. Ryan, 566 U.S. 1, 9 (2012).
A procedural default, however, is not a jurisdictional bar to review of the merits of
a claim, Howard v. Bouchard, 405 F.3d 459, 476 (6th Cir. 2005), and “federal courts are
not required to address a procedural-default issue before deciding against the petitioner
on the merits.” Hudson v. Jones, 351 F.3d 212, 215 (6th Cir. 2003) (citing Lambrix v.
Singletary, 520 U.S. 518, 525 (1997)). Because Holden’s claim regarding the admission
of “other acts” evidence and the prosecutor’s closing argument does not warrant habeas
8

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.996

Page 9 of 28

relief, the court bypasses the procedural-default analysis and directly proceeds to the
merits of Holden’s first claim.
1. Jerreil’s Testimony Regarding his Prior Altercation with Holden
Holden’s claim that the admission of “other acts” evidence violated the Michigan
Rules of Evidence is not cognizable on federal habeas review. Hall v. Vasbinder, 563
F.3d 222, 239 (6th Cir. 2009) (“To the extent that any testimony and comments violated
Michigan’s rules of evidence, such errors are not cognizable on federal habeas
review.”). Furthermore, Holden’s claim is not cognizable on habeas review because
“[t]here is no clearly established Supreme Court precedent which holds that a state
violates due process by permitting propensity evidence in the form of other bad acts
evidence.” Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). Consequently, the state
courts’ rulings on the “other acts” evidence were not “contrary to” any Supreme Court
decision under AEDPA. Id.
Of course, “[i]f a ruling is especially egregious and ‘results in a denial of
fundamental fairness, it may violate due process and thus warrant habeas relief.
Wilson v. Sheldon, 874 F.3d 470, 475 (6th Cir. 2017) (citations omitted). But “states
have wide latitude with regard to evidentiary matters under the Due Process Clause,”
and state-court evidentiary rulings do not rise to the level of a due process violation
unless they offend a fundamental principle of justice. Id. at 475-76.
In the present case, the disputed evidence was admitted for a proper purpose. In
the words of the Michigan Court of Appeals,
Jerrell’s testimony regarding the violent nature of defendant’s actions
toward him less than a week before the shooting gave context to the
9

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.997

Page 10 of 28

events that occurred on the day of the shooting, explaining the
background circumstances of this crime. The testimony explained why,
when he saw Jerrell for the first time since that altercation, defendant
approached Jerrell “ready to fight.” The testimony also explained why
Jerrell immediately retreated and appeared upset to his father, Dwight,
who then went to the front door of his house to investigate the cause. The
jury could infer from this evidence that a continuing and unresolved “family
feud” led to defendant firing several gunshots at his mother and
stepfather’s house....
There was no other evidence of record which would explain why
defendant, without reason or provocation, would fire several gunshots at
the house.’ And without Jerrell’s contested testimony, the jury would have
been deprived “an intelligible presentation of the full context in which the
disputed events took place,” i.e., the “complete story.”
Holden, 2013 WL 1165220, at *2-3.
The evidence also was relevant because Holden’s “defense was that he did not
commit the charged crimes,” and “[ijdentity is always an essential element in a criminal
case.” Id. at *4. “The evidence tended to establish that, because of an on-going family
dispute, defendant was the person who fired several gunshots at the house two of
which struck Dwight.” Id. Finally, the evidence was not unfairly prejudicial. In the state
court’s words, the evidence, “was more than marginally probative and was unlikely to be
given undue weight by the jury because the prior incident involved Jerrell did not
involve a gun or shooting, and the charged crimes were not committed against Jerrell.”
Id.
The court concludes that Jerrell’s testimony regarding the altercation with Holden
about a week before the shooting was not so fundamentally unfair as to deprive Holden
of due process. Therefore, he is not entitled to relief on his claim.

10

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.998

Page 11 of 28

2. The Prosecutor’s Closing Argument
Holden contends that the prosecutor’s closing argument regarding Jerrell’s “other
acts” testimony exacerbated the evidentiary error and constituted improper propensity
evidence.
The Supreme Court has said that prosecutors have a duty to “refrain from
improper methods calculated to produce a wrongful conviction.” Viereck v. United
States, 318 U.S. 236, 248 (1943). Prosecutorial-misconduct claims are reviewed
deferentially in a habeas case. Millenderv. Adams, 376 F.3d 520, 528 (6th Cir. 2004).
When the issue is the prosecutor’s remarks during closing arguments, the “clearly
established Federal law” is the Supreme Court’s decision in Darden v. Wainwright, 477
U.S. 168 (1986). Parker v. Matthews, 567 U.S. 37, 45 (2012) {per curiam). In Darden,
the Supreme Court stated that:
[l]t “is not enough that the prosecutors’ remarks were undesirable or even
universally condemned.” Darden v. Wainwright, 699 F.2d [1031, 1036
(11th Cir. 1983)]. The relevant question is whether the prosecutors’
comments “so infected the trial with unfairness as to make the resulting
conviction a denial of due process.” Donnelly v. DeChristoforo, 416 U.S.
637, 94 S.Ct. 1868, 40 L.Ed.2d 431 (1974). Moreover, the appropriate
standard of review for such a claim on writ of habeas corpus is “the narrow
one of due process, and not the broad exercise of supervisory power.” Id.,
at 642.
Darden, All U.S. at 181.
The prosecutor made the remarks in dispute in this case when summarizing
Jerrell’s testimony about his altercation with Holden at the gas station. She said:
And what did the defendant do? I believe the witness said he got heated
and he hit his brother in the face. And Jerrell McCree told you that he got
out [of] the car and he began to run. And did the defendant leave it right
there? No. He escalated the situation and chased his brother in the car to
11

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.999

Page 12 of 28

the gas station. Did he leave it there? No. He escalated that situation and
went inside the gas station after his brother; hit him again; the witness said
he fell to the ground and then the defendant tried to drag him out of the
gas station, ‘cause that’s the type of person the defendant is. He’s a
violent individual. Obviously, a family familiar (sic) relationship did not
mean anything at the time.
(ECF No. 11-5, PagelD.326) (emphasis added).
No witnesses at trial testified that familial relationships meant nothing to Holden.
Furthermore, the prosecutor expressed her personal opinion when she stated that
Holden was a violent individual. Prosecutors should refrain from interjecting their
personal beliefs into the presentation of their cases. United States v. Young, 470 U.S. 1,
8-9 (1985). They should also refrain from emphasizing a defendant’s bad character and
from relying on facts not in evidence. Hodge v. Hurley, 426 F,3d 368, 384 (6th Cir.
2005). Nevertheless, the jury could infer from trial testimony about Holden’s behavior
toward family members that he was a violent individual who gave little regard for his
familial relationships. Thus, the prosecutor’s remarks were not so unfair as to deprive
Holden of due process. See United States v. Polizzi, 500 F.2d 856, 899 (9th Cir. 1974)
(concluding that the prosecutor’s comments during closing arguments— that the
defendants were violent individuals—were not so prejudicial as to require reversal of the
jury’s verdicts). The prosecutor for Holden’s trial was permitted to “argue the record . . .
and forcefully assert reasonable inferences from the evidence. Cristini v. McKee, 526
F.3d 888, 901 (6th Cir. 2008).
The Michigan Court of Appeals, moreover, determined that the prosecutor’s
remarks were harmless. The Court of Appeals’ decision was an objectively reasonable
conclusion given the substantial amount of evidence against Holden and the fact that
12

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1000

Page 13 of 28

the trial court sustained defense counsel’s objection to the prosecutor’s remarks. (ECF
No. 11-5, PagelD.327.) The trial court also instructed the jurors at the beginning of the
trial and in its concluding charge to the jury that the attorneys arguments were not
evidence and that the jurors should only base their verdict on the admissible evidence.
(Id. at PagelD.50-51; ECF No.11-6, PagelD.6-7.) Juries are presumed to follow a trial
court’s instructions. Richardson v. Marsh, 481 U.S. 200, 211 (1987). A courts
instruction to a jury that the attorneys’ arguments are not evidence can cure
improprieties in closing arguments. Byrd v. Collins, 209 F.3d 486, 537 (6th Cir. 2000)
(quoting United States v. Carroll, 26 F.3d 1380, 1389 n. 12 (6th Cir. 1994)). For all the
foregoing reasons, Holden is not entitled to relief on his prosecutorial-misconduct claim.
3. Cumulative Effect of Errors
Holden maintains that the cumulative effect of the “other acts” evidence and the
prosecutor’s remarks deprived him of a fair trial. Post-AEDPA, however, this claim is not
cognizable on habeas corpus review because “[t]he Supreme Court has not held that
distinct constitutional claims can be cumulated to grant habeas relief.” Lorraine v. Coyle,
291 F.3d 416, 447 (6th Cir. 2002); see also Sheppard v. Bagley, 657 F.3d 338, 348 (6th
Cir. 2011); Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005).
B. The Sentencing Guidelines
In his second claim, Holden alleges that the trial court erroneously scored fifty
points for offense variable six of the Michigan sentencing guidelines. Offense variable
six “is the offender’s intent to kill or injure another individual.” Mich. Comp. Laws §

13

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1001

Page 14 of 28

777.36(1). A sentencing court may score fifty points for this offense variable if the
offender premeditated a killing. Mich. Comp. Laws § 777.36(1 )(a).
The state trial court scored fifty points for offense variable six because it thought
that Holden had premeditated his crimes based on the trial court’s conclusion that, prior
to the shooting, Holden told Dwight, “I’m coming back to get you.” (ECF No. 11-7,
PagelD.372.) According to Holden, the trial court’s belief that Holden said, “I’m coming
back to get you,” is not supported by the record.
The Michigan Court of Appeals concluded on review of Holden’s claim that the
trial court’s scoring of offense variable six was not clearly erroneous because:
[T]he record evidence included that defendant implied to Dwight that he
had a gun, said that Dwight was “on his last leg,” and that he “would be
right back.” About ten minutes later, Dwight heard gunshots outside his
house and a window breaking in his house. Several more gunshots were
fired and Dwight was actually struck with two bullets. Dwight also testified
that his relationship with defendant was “bad.”
Holden, 2013 WL 1165220, at *5.
This court finds no merit in Holden’s claim because a trial court’s error “in
applying the state sentencing guidelines raises an issue of state law only,” GarciaDorantes v. Warren, 769 F. Supp. 2d 1092, 1112 (ED. Mich. 2011) (Lawson, J ), and
“federal habeas corpus relief does not lie for errors of state law.” Lewis v. Jeffers, 497
U.S. 764, 780 (1990)). Holden, nevertheless, claims that the trial court violated his
constitutional right to due process by sentencing him on inaccurate information.
A sentence violates due process of law if the trial court relied on extensively and
materially false information that the defendant had no opportunity to correct through
counsel. Townsend v. Burke, 334 U.S. 736, 741 (1948). To obtain relief, Holden must
14

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1002

Page 15 of 28

show that his sentence was “founded at least in part upon misinformation of
constitutional magnitude.” United States v. Tucker, 404 U.S. 443, 447 (1972).
Here, although there was no testimony at trial that Holden threatened to return to
Dwight’s home and “get him,” Dwight testified at the preliminary examination that, when
he looked out his front door and saw Holden, Holden informed him that he was coming
back to “get” Dwight. (ECF No. 11-2, PagelD.151.) Dwight also testified at the
preliminary examination that on the day of the shooting, he and Holden did not begin
fighting until after Holden said that he was going to “get” him. (Id. at 151-52.)
“Sentencing courts have long enjoyed discretion in the sort of information they
may consider when setting an appropriate sentence.” Dean v. United States, 137 S. Ct.
1170, 1175 (2017) (citing Pepper v. United States, 562 U.S. 476, 487-489 (2011)). In
Michigan, “[w]hen calculating the sentencing guidelines, a court may consider all record
evidence, including . . . testimony presented at a preliminary examination.” People v.
McChester, 873 N.W.2d 646, 648 (Mich. Ct. App. 2015) (citing People v. Johnson, 826
N.W.2d 170, 172 (Mich. Ct. App. 2012)). Thus, the sentencing court could rely on
Dwight’s statements at the preliminary examination in formulating Holden’s sentence.
Furthermore, there was trial testimony that after Holden fired a few shots at the
front of Dwight’s house, Dwight moved in front of a window and Holden fired his gun two
more times, hitting Dwight in the shoulder. Based on this testimony, the trial court did
not rely on materially false information or misinformation of constitutional magnitude
when it concluded that Holden premeditated his offense. Holden is not entitled to relief
on his sentencing claim.
15

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1003

Page 16 of 28

C. Trial Counsel
Holden’s next five claims allege ineffective assistance of trial and appellate
counsel. The State argues that the five claims are barred by the habeas statute of
limitations and that Holden’s claims about trial counsel are also procedurally defaulted
because he did not raise those claims on direct appeal.
The habeas statute of limitations is not jurisdictional, Holland v. Florida, 560 U.S.
631,645 (2010) (quoting Day v. McDonough, 547 U.S. 198, 205 (2006)). The court
finds it more efficient to analyze Holden’s claims on an alternative basis than to
determine whether the claims are barred by the statute of limitations. Accordingly, the
court excuses the alleged failure to comply with the statute of limitations and proceeds
to address Holden’s claims about trial counsel under the doctrine of procedural default.
1. The Law of Procedural Default
As noted above, a procedural default is “a critical failure to comply with state
procedural law.” Trest, 522 U.S. at 89. The Supreme Court has held that,
[i]n all cases in which a state prisoner has defaulted his federal claims in
state court pursuant to an independent and adequate state procedural
rule, federal habeas review of the claims is barred unless the prisoner can
demonstrate cause for the default and actual prejudice as a result of the
alleged violation of federal law, or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of justice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991). In this Circuit, therefore,
“[a] habeas petitioner’s claim will be deemed procedurally defaulted if
each of the following four factors is met: (1) the petitioner failed to comply
with a state procedural rule; (2) the state courts enforced the rule; (3) the
state procedural rule is an adequate and independent state ground for
denying review of a federal constitutional claim; and (4) the petitioner has
not shown cause and prejudice excusing the default.” [Jalowiec v.
Bradshaw, 657 F.3d 293, 302 (6th Cir. 2011)]. To determine whether a
16

A

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1004

Page 17 of 28

state procedural rule was applied to bar a habeas claim, [courts] look “to
the last reasoned state court decision disposing of the claim.” Guilmette v.
Howes, 624 F.3d 286, 291 (6th Cir. 2010) (en banc).
Henderson v. Palmer, 730 F.3d 554, 560 (6th Cir. 2013).
The state procedural rule at issue here is Michigan Court 6.508(D)(3), which
reads in relevant part as follows:
(D) Entitlement to Relief. The defendant has the burden of establishing
entitlement to the relief requested. The court may not grant relief to the
defendant if the motion

(3) alleges grounds for relief, other than jurisdictional
defects, which could have been raised on appeal from the
conviction and sentence or in a prior motion under this
subchapter, unless the defendant demonstrates
(a) good cause for failure to raise such grounds
on appeal or in the prior motion, and
(b) actual prejudice from the alleged
irregularities that support the claim for relief.
Mich. Ct. R. 6.508(D)(3).
2. Application
Petitioner violated Rule 6.508(D)(3) by not raising his claims about trial counsel
in his appeal of right. He raised those claims for the first time in his post-appellate
motion for relief from judgment. Petitioner’s violation of Rule 6.508(D)(3) satisfies the
first procedural-default factor.
The state trial court was the last state court to address Holden’s claims about the
adequacy of his trial counsel in a reasoned decision and it rejected these claims
17

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1005

Page 18 of 28

because Holden did not show “good cause” under Rule 6.508(D)(3)(a) for failing to raise
his claims on appeal or “actual prejudice” under Rule 6.508(D)(3)(b). This state court
ruling constituted enforcement of Rule 6.508(D). Although the trial court also stated that
Holden’s claims about trial counsel lacked merit, the state court’s alternative holding
does not require this court to disregard the state court’s procedural ruling. Harris v.
Reed, 489 U.S. 255, 264 n.10 (1989); Coe v. Bell, 161 F.3d 320, 330 (6th Cir. 1998).
Thus, the trial court’s ruling on Holden’s trial counsel claims satisfies the second
procedural-default factor.
The third procedural-default factor also is satisfied because Rule 6.508(D) is an
adequate and independent ground on which state courts may rely to foreclose review of
federal claims. Howard, 405 F.3d at 477. So, to prevail on his procedurally defaulted
claims, Holden must show “cause” for his state procedural error and resulting prejudice.
Holden alleges in his seventh claim that his appellate attorney was ineffective for
failing to raise his claims about trial counsel on direct appeal. Constitutionally ineffective
assistance of counsel is cause for a procedural default. Murray v. Carrier, 477 U.S. 478,
488 (1986). However, an appellate attorney is constitutionally ineffective only if (1) the
attorney acted unreasonably in failing to discover and raise nonfrivolous issues on
appeal and (2) there is a reasonable probability the defendant would have prevailed on
appeal if his attorney had raised the issue. Smith v. Robbins, 528 U.S. 259, 285 (2000).
When assessing the second prong of the Robbins test, the court considers the
strength of the claims that appellate counsel failed to raise. Carter v. Parris, 910 F.3d
835, 841 (6th Cir. 2018) (quoting Wilson v. Parker, 515 F.3d 682, 707 (6th Cir. 2008)),
18

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1006

Page 19 of 28

cert, denied, 139 S. Ct. 2703 (2019). “If there is no ‘reasonable probability that inclusion
of the issue would have changed the result of the appeal,’ then habeas relief will not be
granted.” Id. (quoting McFarland v. Yukins, 356 F.3d 688, 699 (6th Cir. 2004)).
With these considerations in mind, the court will briefly address Holden’s claims
about his trial attorney, keeping in mind that a trial attorney is constitutionally ineffective
only if counsel’s performance was deficient and the deficient performance prejudiced
the defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).
a. Counsel of Choice
In his third claim, Holden alleges that (1) the trial court deprived him of his right to
counsel of choice and (2) his appointed attorney was ineffective for failing to (a) raise
the counsel-of-choice issue in the trial court, (b) recuse himself after learning that
Holden wanted to retain another attorney, and (c) request an adjournment so that
Holden could retain another attorney.
The court has found no evidence in the record that Holden was unhappy with his
appointed attorney, that he wanted to retain a different attorney, or that the trial court
deprived him of his right to counsel of choice. The state trial court’s docket shows that
retained counsel filed an appearance in Holden’s case on August 25, 2011, but an
appointed attorney represented Holden at the preliminary examination on the same day
and at all subsequent proceedings. Trial counsel was apparently appointed due to
Holden’s indigence, and “the right to counsel of choice does not extend to defendants
who require counsel to be appointed for them.” United States v. Gonzalez-Lopez, 548
U.S. 140, 151 (2006). Therefore, the trial court did not deprive Holden of a constitutional
19

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1007

Page 20 of 28

right, and trial counsel was not ineffective for failing to raise the counsel-of-choice issue,
recuse himself, or request an adjournment so that Holden could retain another attorney.
b. Plea Bargaining
Holden alleges in his fourth claim that he was denied effective assistance of
counsel during plea bargaining. According to Holden, trial counsel declined a favorable
offer from the prosecution without informing Holden of the offer.
The record indicates that Holden was present during his arraignment in Wayne
County Circuit Court when his attorney stated that the prosecution had not made any
offers. The attorney also stated that Holden was not interested in pleading guilty, at
least, not on the main charge. Holden did not contradict his attorney’s remarks or say
anything to the trial court. (ECF No. 11-3, PagelD.180.)
At a subsequent motion hearing, which Holden attended, the prosecutor offered
to dismiss two of the charges and the habitual offender notice if Holden pleaded guilty to
assault with intent to murder and felony firearm. Defense counsel’s response to the offer
was, “I will go see if they have a better offer” and “We’ve gotten past this point.” (ECF
No. 11-4, Page ID. 193-94.) The trial court then stated that if there was no resolution,
everyone should return to court on the date and time set for trial. (Id. at PagelD.194.)
The next court proceeding was the trial, which commenced on December 8,
2011. Nothing further was said about any plea negotiations, but in a post-trial letter to
Holden’s appellate attorneys, trial counsel stated that Holden would have been allowed
to plead guilty to assault with intent to do great bodily harm less than murder and felonyfirearm. Although Holden contends that the letter is proof that his trial attorney did not
20

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1008

Page 21 of 28

convey a plea offer to him, trial counsel also explained in the letter that Holden rejected
the offer, contrary to counsel’s advice and the advice of Holden’s family. (ECF No. 21,
PagelD.972.) The record does not support Holden’s claim that his trial attorney rejected
a plea offer without first consulting Holden.
c. Failure to Raise an Insanity Defense or
Move for a Competency Examination
Holden’s fifth claim alleges that trial counsel failed to (1) investigate evidence that
he suffered from severe depression, (2) request a competency examination, and (3)
consider the possibility of an insanity defense. In support of this claim, Holden alleges
that he was involuntarily committed for mental health treatment before the incident in
question and that trial counsel knew this but failed to investigate whether an insanity
defense might be available.
i. Insanity
An attorney’s failure to explore the possibility of a not-guilty-by-reason-of-insanity
defense can rise to the level of constitutionally defective counsel. Daoud v. Davis, 618
F.3d 525, 532 (6th Cir. 2010) (quoting Lundgren v. Mitchell, 440 F.3d 754, 771 (6th Cir.
2006)). Nevertheless, in Michigan, an insanity defense based on mental illness requires
a defendant to prove that due to mental illness, he lacked a substantial capacity to
appreciate the nature and quality of the wrongfulness of his conduct or to conform his
conduct to the requirements of the law. People v. Jackson, 627 N.W.2d 11, 14-15
(Mich. Ct. App. 2001). One factor that a court can consider when determining whether
the defendant could conform his conduct to the requirements of the law is whether the
defendant had the ability to control his behavior. Id. at 15.
21

Case 2:14-cv-13701-RHC-DRG ECFNo. 23 filed 11/04/19

PagelD.1009

Page 22 of 28

Holden has not presented the court with any credible evidence that he was
insane or even mentally ill at the time of the shooting. Even if he was suffering from
mental illness at the time, the testimony at trial demonstrates that he could control his
behavior. He had an argument with his half-brother Jerrell before the shooting incident
and when Dwight confronted him, Holden said that he would be back. About 10 or 15
minutes later, Holden returned to Jerrell and Dwight’s residence and fired his gun. He
first shot at the door, and when Dwight moved to a window, Holden shot at the window.
He then left the residence. Because Holden engaged in purposeful and goal-oriented
behavior, an insanity defense would not have been viable, and trial counsel was not
ineffective for failing to assert an insanity defense. Chapman v. United States, 74 Fed.
App’x 590, 593 (6th Cir. 2003) (“Counsel is not required by the Constitution to raise
frivolous defenses or arguments to avoid a charge of ineffective representation.”).
ii. Incompetence
The test for competency to stand trial is whether the defendant “has sufficient
present ability to consult with his lawyer with a reasonable degree of rational
understanding—and whether he has a rational as well as factual understanding of the
proceedings against him.” Dusky v. United States, 362 U.S. 402, 402 (1960) {par
curiam)-, accord Drope v. Missouri, 420 U.S. 162, 171 (1975) (stating that “a person
whose mental condition is such that he lacks the capacity to understand the nature and
object of the proceedings against him, to consult with counsel, and to assist in preparing
his defense may not be subjected to a trial”); United States v. Abdulmutallab, 739 F.3d
891, 899 (6th Cir. 2014) (stating that “[t]he test for competency to stand trial is whether
22

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1010

Page 23 of 28

the defendant has (1) sufficient present ability to consult with a lawyer with a reasonable
degree of rational understanding, and (2) a rational and factual understanding of the
proceedings against him”) (footnote omitted).
Even if Holden was severely depressed and mentally ill, as he claims, it does not
follow that he was incompetent to stand trial. United States v. Davis, 93 F.3d 1286,
1290 (6th Cir. 1996) (quoting Newfield v. United States, 565 F.2d 203, 206 (2d Cir.
1977)). At trial, Holden engaged in a colloquy with the court when he waived his right to
testify. He stated that he understood his right to testify and his right to remain silent and
that the decision was his to make. (ECF No. 11-5, PagelD.324-25.) The trial court then
noted that Holden had been afforded an opportunity to discuss the advisability of
testifying or not testifying with his attorney. When the trial court asked Holden if he had
decided whether or not to testify, Holden said, “Can I have one second, your Honor?”
(Id. at PagelD.325.) The trial court responded, “Yeah, sure.” (Id.)
The record is silent as to whether Holden actually consulted his attorney at that
point. Even if he did not speak with his attorney, he informed the trial court shortly after
requesting “one second” of time that he did not want to take the stand. (Id.) The
colloquy demonstrates that Holden understood the proceedings against him and that he
had a sufficient ability to consult with his lawyer.
Additionally, at his sentencing two weeks later, Holden made an impassioned
argument in his defense. He claimed that Dwight was “a wanted man” who was
accusing him of something he did not do, that he (Holden) could barely use his right arm
at the time of the shooting, and that it would have been impossible to see Dwight at the
23

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1011

Page 24 of 28

time of the shooting because the blinds in the house were closed. (ECF No. 11-7,
PagelD.376-77.) When the trial court subsequently asked Holden how many years he
thought he should be in prison, Holden responded, “If it was up to me your Honor, I
don’t know. I just know it wasn’t me there and it’s crazy for them to be accusing me of
this.” {Id. at PagelD.377-78.)
The record indicates that Holden was competent during the court proceedings.
Therefore, trial counsel was not ineffective for failing to request a competency hearing.
See Chapman, 74 Fed. App’x at 593.
d. Failure to Investigate
In his sixth claim, Holden asserts that trial counsel failed to investigate Dwight’s
criminal history and use of medications. Holden, however, has not shown that Dwight
actually had a criminal history. Additionally, though Holden asserts that effective crossexamination of Dwight’s use of medication and ability to observe the incident in question
could have undermined Dwight’s credibility, Holden suffered no prejudice from his
attorney’s failure to explore the issue on cross examination because the trial court sua
sponte raised that issue when the court noticed that Dwight’s speech seemed
somewhat slow. (ECF No. 11-5, PagelD.295-96.) In response to the court’s inquiry,
Dwight explained that he was taking about ten different medications due to kidney
problems, high blood pressure, and a double fracture in his foot. {Id. at PagelD.296.)
Dwight also admitted to taking muscle relaxers to help him relax, and he stated that the
medications sometimes affected his memory. {Id. at PagelD.297.) But Dwight claimed to

24

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1012

Page 25 of 28

remember the shooting, and he said that it was only “the time things” that he did not
clearly recall. (Id.)
Given the trial court’s thorough questioning of Dwight about his medications,
defense counsel was not ineffective for failing to raise the same issue on crossexamination. Even if trial counsel’s performance was deficient, the deficient
performance did prejudice the defense because Dwight testified on re-direct
examination by the prosecutor that his medications did not affect his vision or his ability
to recognize Holden on the night of the crime. (Id. at PagelD.303.)
3. Conclusion on Holden’s “Cause” Argument;
Prejudice; Miscarriage of Justice
For the reasons given above, Holden’s claims about trial counsel lack merit.
Therefore, appellate counsel did not act unreasonably in failing to discover and raise the
claims on appeal, and there is no reasonable probability that Holden would have
prevailed on appeal if his appellate attorney had raised the issues. It follows that
appellate counsel was not ineffective or “cause” for Holden’s procedural default.
The court need not determine whether the alleged constitutional errors prejudiced
Holden because he has failed to show cause for his failure to comply with state law.
Smith v. Murray, All U.S. 527, 533 (1986); Simpson v. Jones, 238 F.3d 399, 409 (6th
Cir. 2000).
In the absence of “cause and prejudice,” a habeas petitioner may pursue a
procedurally defaulted claim if he can demonstrate that failure to consider his claim will
result in a fundamental miscarriage of justice. Coleman, 501 U.S. at 750. “A
fundamental miscarriage of justice results from the conviction of one who is ‘actually
25

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1013

Page 26 of 28

innocent.’” Lundgren v. Mitchell, 440 F.3d 754, 764 (6th Cir. 2006) (citing Carrier, 477
U.S. at 496). “To be credible, [a claim of actual innocence] requires [the] petitioner to
support his allegations of constitutional error with new reliable evidence—whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
Holden has not presented the court with new and reliable evidence of actual
innocence. Therefore, a miscarriage of justice will not occur as a result of the court’s
failure to address the merits of Holden’s claims about trial counsel. His third, fourth, fifth,
and sixth claims satisfy all four factors to justify procedural default and will be denied on
that basis.
D. Appellate Counsel
In his seventh and final claim, Holden raises an independent claim about his
appellate attorney. He alleges that appellate counsel failed to investigate his case and
should have raised his claims about trial counsel on appeal.
No state court addressed this issue on the merits. Although the trial court
implicitly rejected Holden’s claim about appellate counsel in its order denying Holden’s
motion for relief from judgment, the focus of the order was Holden’s claim that trial
counsel was ineffective. The trial court’s conclusion—that Holden’s claims lacked
merit—also referred to trial counsel. Thus, there was no clear adjudication on the merits
of Holden’s claim about appellate counsel, and “the deference due under AEDPA does
not apply.” Maples v. Stegall, 340 F.3d 433, 436 (6th Cir. 2003) (citing Williams v.
Coyle, 260 F.3d 684, 706 (6th Cir. 2001)).
26

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1014

Page 27 of 28

Holden was represented by appointed counsel on appeal. He had no
constitutional right to compel his appointed attorney to raise nonfrivolous arguments if
the attorney, as a matter of professional judgment, decided not to raise the requested
arguments. Jones v. Barnes, 463 U.S. 745, 751 (1983) “In fact, the process of
winnowing out weaker arguments on appeal is the hallmark of effective appellate
advocacy.” Monzo v. Edwards, 281 F.3d 568, 579 (6th Cir. 2002) (quotation marks and
citations omitted). To prevail on his claim for ineffective assistance of appellate counsel,
Holden must demonstrate that (1) his appellate attorney acted unreasonably in failing to
discover and raise nonfrivolous issues on appeal and (2) there is a reasonable
probability he would have prevailed on appeal if his attorney had raised the issues.
Robbins, 528 U.S. at 285 (citing Strickland, 466 U.S. at 687-91, 694).
Holden’s underlying claims about trial counsel and the trial court’s alleged failure
to honor his right to counsel of choice lack merit for the reasons given in the discussion
above. Therefore, Holden’s claim that appellate counsel was ineffective for failing to
raise these arguments also lacks merit. “[B]y definition, appellate counsel cannot be
ineffective for a failure to raise an issue that lacks merit.” Greer v. Mitchell, 264 F.3d
663, 676 (6th Cir. 2001). The court will deny his final claim.
IV. CERTIFICATE OF APPEALABILITY
Before Petitioner may appeal the court’s decision, a certificate of appealability
must issue. See 28 U.S.C. § 2253(c)(1)(a); Fed. R. App. P. 22(b). A certificate of
appealability may issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a federal court dismisses
27

Case 2:14-cv-13701-RHC-DRG ECF No. 23 filed 11/04/19

PagelD.1015

Page 28 of 28

a petition on procedural grounds without addressing the merits a certificate of
appealability should issue if it is shown that jurists of reason would find it debatable
whether the petitioner states a valid claim of the denial of a constitutional right and
whether the district court was correct in its procedural ruling. See Slack v. McDaniel,
529 U.S. 473, 484-85 (2000). The court concludes that reasonable jurists would not
debate the correctness of the court’s ruling. A certificate of appealability will be denied.
V. CONCLUSION
The state appellate court’s adjudication of Holden’s first two claims was not
contrary to Supreme Court precedent, an unreasonable application of Supreme Court
precedent, or an unreasonable application of the facts. Habeas claims three through six
are procedural^ defaulted, and Holden’s seventh claim lacks merit. Accordingly,
IT IS ORDERED that the petition for writ of habeas corpus (ECF No. 1), as
amended, is DENIED.
IT IS FURTHER ORDERED that Holden’s informal requests in his pleadings for
an evidentiary hearing and appointment of counsel are DENIED.
Finally, IT IS ORDERED that a Certificate of Appealability is DENIED.
s/Robert H. Cleland
ROBERT H. CLELAND
UNITED STATES DISTRICT JUDGE
Dated: November 4, 2019
I hereby certify that a copy of the foregoing document was mailed to counsel of record
on this date, November 4, 2019, by electronic and/or ordinary mail.
s/Lisa Wagner
Case Manager and Deputy Clerk
(810) 292-6522
S:\CIeland\Cleland\HEK\Staff AttomeyM 4-13701. HOLDEN .2254. BH.HEK.docx

28

